                  AUDIT OF

       COMPLIANCE WITH STANDARDS

  GOVERNING COMBINED DNA INDEX SYSTEM

ACTIVITIES AT THE WASHINGTON STATE PATROL

       MARYSVILLE CRIME LABORATORY

           TULALIP, WASHINGTON



         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


        Audit Report GR-90-13-003

                March 2013 

                         AUDIT OF

              COMPLIANCE WITH STANDARDS

         GOVERNING COMBINED DNA INDEX SYSTEM

       ACTIVITIES AT THE WASHINGTON STATE PATROL

              MARYSVILLE CRIME LABORATORY

                  TULALIP, WASHINGTON


                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Washington State
Patrol Marysville Crime Laboratory (Laboratory) in Tulalip, Washington.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA



       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from December 2009 through
January 2012. The objectives of our audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS.

      Our review determined the following:

      •	 The Laboratory was in compliance with the NDIS participation
         requirements we tested, including: (1) current NDIS eligibility
         training for Laboratory personnel; (2) availability and accessibility
         of NDIS procedures for CODIS users: and (3) adequate security for
         CODIS equipment that was located in a controlled laboratory space.

      •	 The Laboratory was in compliance with the QAS we reviewed,
         including: (1) completion of periodic internal and external QAS
         reviews; (2) implementation of corrective actions presented by
         internal and external reviews; and (3) had procedures in place to
         help ensure that access to the Laboratory was controlled and
         limited to authorized personnel. Finally, at the time of our audit,
         the Laboratory was conducting technical review of the analysis of its
         forensic DNA samples outsourced to another laboratory.

      •	 We reviewed 100 of the Laboratory’s 461 forensic profiles that have
         been uploaded to NDIS as of January 19, 2012. Of the 100 forensic
         profiles sampled, we found that 99 profiles were complete,
         accurate, and allowable. We identified one unallowable profile that
         was not taken from the crime scene. The Laboratory agreed to
         delete the unallowable profile and one more unallowable profile that
         was not in our original sample, but was also uploaded in association
         with the case file of the unallowable profile in our sample. In total,
         the Laboratory removed two unallowable profiles from NDIS.

      The results of our audit are discussed in detail in the Findings section
of the report. We describe our audit objectives, scope, and methodology in
Appendix I and audit criteria in Appendix II.


                                     - ii ­
      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. In addition, we
requested from the Laboratory and the FBI written responses to a draft copy
of our audit report. We received those responses and they are found in
Appendices III and IV, respectively. Based on our report that contained no
recommendations and the responses that we received, we issue this final
report closed.




                                   - iii ­
                                 TABLE OF CONTENTS


INTRODUCTION ................................................................................. 1

      Background ................................................................................... 1

      OIG Audit Objectives ...................................................................... 1

      Legal Foundation for CODIS............................................................. 2

      CODIS Structure ............................................................................ 2

      Laboratory Information ................................................................... 6



FINDINGS
I.	   Compliance with NDIS Participation Requirements .............................. 7

      Results of the OIG Audit .................................................................. 7

      Conclusion................................................................................... 10

II.	 Compliance with Quality Assurance Standards ................................. 11

      Results of the OIG Audit ................................................................ 11

      Conclusion................................................................................... 14

III. Suitability of Forensic DNA Profiles in CODIS Databases .................... 16

      Results of the OIG Audit ................................................................ 16

      Conclusion................................................................................... 17


APPENDICIES:

I.     OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 18

II.    AUDIT CRITERIA .................................................................... 21

III. AUDITEE RESPONSE ............................................................... 25

IV.    DEPARTMENT OF JUSTICE RESPONSE..................................... 26

                         AUDIT OF

              COMPLIANCE WITH STANDARDS

         GOVERNING COMBINED DNA INDEX SYSTEM

       ACTIVITIES AT THE WASHINGTON STATE PATROL

              MARYSVILLE CRIME LABORATORY

                  TULALIP, WASHINGTON


                                 INTRODUCTION


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Washington State
Patrol Marysville Crime Laboratory (Laboratory) in Tulalip, Washington.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

       Our audit covered the period from December 2009 through January
2012. The objectives of our audit were to determine if the: (1) Laboratory
was in compliance with the National DNA Index System (NDIS) participation
requirements; (2) Laboratory was in compliance with the Quality Assurance
Standards (QAS) issued by the FBI; and (3) Laboratory’s forensic DNA
profiles in CODIS databases were complete, accurate, and allowable for
inclusion in NDIS. Appendix I contains a detailed description of our audit
objectives, scope, and methodology; and Appendix II contains the criteria
used to conduct the audit.



       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing

      2
          42 U.S.C.A. § 14132 (2006).

                                        -2­
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                           NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory­
to-laboratory contacts. NDIS contains the following eight searchable
indices:




                                              -3­
       •	   Convicted Offender Index contains profiles generated from persons
            convicted of qualifying offenses. 3

       •	   Arrestee Index is comprised of profiles developed from persons who
            have been arrested, indicted, or charged in an information with a
            crime.

       •	   Legal Index consists of profiles that are produced from DNA
            samples collected from persons under other applicable legal
            authorities. 4

       •	   Detainee Index contains profiles from non-U.S. persons detained
            under the authority of the U.S. and required by law to provide a
            DNA sample for analysis and entry into NDIS.

       •	   Forensic Index profiles originate from, and are associated with,
            evidence found at crime scenes.

       •	   Missing Person Index contains known DNA profiles of missing
            persons and deduced missing persons.

       •	   Unidentified Human (Remains) Index holds profiles from
            unidentified living individuals and the remains of unidentified
            deceased individuals. 5

       •	   Relatives of Missing Person Index is comprised of DNA profiles
            generated from the biological relatives of individuals reported
            missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes, and
(2) identify missing and unidentified persons.

      The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the

       3
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.
       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.

                                             -4­
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and




                                     -5­
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

       According to Laboratory officials, the Laboratory serves about
75 agencies including; the Marysville Police Department, Washington State
Fish and Wildlife, Washington State Parks, and the Swinomish Gaming
Commission. In total, the Laboratory serves a population size of 1.3 million
people from 8 surrounding counties (Chelan, Clallam, Island, Jefferson, San
Juan, Skagit, Snohomish, and Whatcom counties). The Laboratory
participates in the CODIS program as a LDIS Laboratory and maintains a
Forensic database. The Laboratory began analyzing DNA using Short
Tandem Repeat (STR) in 2001, and began processing evidence in criminal
cases and uploading forensic profiles into NDIS in 2003.

      The Laboratory was last accredited for 5 years by the American
Society of Crime Laboratory Directors/Laboratory Accreditation Board
(ASCLD/LAB) in July 2010. Thus, the Laboratory is up for renewal in July
2015.




      6
          A “loci” is a specific location on a chromosome. The plural form of locus is loci.

                                             -6­
                                 FINDINGS

      I.    Compliance with NDIS Participation Requirements

            The Laboratory was in compliance with NDIS
            participation requirements regarding training, match
            confirmations, physical security over its CODIS
            server, and back-ups. Specifically, we found that
            Laboratory personnel completed the required NDIS
            eligibility training. Also, the Laboratory confirmed
            NDIS matches in a timely manner. The Laboratory’s
            CODIS server was physically secure and access to it
            and CODIS was limited to authorized personnel only.
            In addition, we found the Laboratory backed up the
            CODIS server in accordance with NDIS requirements.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

       We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that the Laboratory was in
compliance with NDIS participation requirements regarding updated NDIS
eligibility training for its personnel, timeliness of NDIS matches, securing the
CODIS server and limiting access to authorized personnel only, and backing
up its CODIS server in accordance with NDIS requirements. These results
are described in more detail below.

      •	 The NDIS Laboratories Operational Procedures manual in effect
         during our audit required that participating laboratories ensure that
         CODIS users are provided copies of, understand and abide by the
         Memorandum of Understanding for Participation in NDIS, the NDIS
         operational procedures, and supporting documentation issued by
         the FBI. The Laboratory’s CODIS Administrator stated that the
         Memorandum of Understanding for Participation in NDIS, the NDIS
         operational procedures, and the FBI’s eligibility flowchart are
         available for anyone to look at on the FBI’s Criminal Justice

                                     -7­
  Information System—Wide Area Network (CJIS-WAN). All
  Laboratory forensic personnel have access to these documents on
  the CJIS-WAN. Finally, we interviewed three of the eight CODIS
  users who stated that they were aware of the NDIS procedures and
  that they knew how to access the procedures on the CJIS-WAN.

•	 Laboratory’s CODIS users are required to complete annual DNA
   records acceptance training. The FBI provided a list of Laboratory
   personnel who had received this mandatory annual training, which
   we compared to a similar list of personnel provided by the
   Laboratory. We found that all authorized personnel required to
   complete the training had successfully completed the annual
   training in 2012.

•	 For each CODIS user, the FBI requires that a participating
   laboratory submit fingerprint cards, background information, CODIS
   user information, and other appropriate documentation to the FBI.
   We verified that all necessary documents were provided to the FBI
   for all 8 CODIS users, including 3 Information Technology (IT)
   CODIS users.

•	 The NDIS Confirmation and Hit Dispositioning Operational
   Procedures describe what participating laboratories must do to
   confirm matches that are identified in the CODIS system. We
   reviewed a sample of five NDIS matches and determined:

  o	 The Laboratory sent confirmation requests in a timely manner
     for all five matches;

  o	 Confirmation generally took place within 30 days after the
     originating laboratory’s request was sent out for four of the five
     matches. For the one late match confirmation, the process took
     55 days because another laboratory did not confirm the match
     request submitted by the Laboratory in a timely manner; and

  o	 The Laboratory notified investigators of match confirmation
     within 2 weeks for four out of the five matches. For the one late
     notification, the Laboratory notified the investigator 7 days late,
     which we do not take issue with.

•	 The NDIS Security Requirements state that the CODIS server shall
   be physically safeguarded from unauthorized use and be only
   accessible to a limited number of approved personnel. We found
   that only authorized Laboratory personnel had key card access to

                              -8­
   the forensic Laboratory where the CODIS terminals and server are
   located. Moreover, the Laboratory’s in-house policy limits access to
   the CODIS database to only CODIS users, which have their own
   CODIS accounts, unique passwords, and must undergo annual
   CODIS training. We confirmed that only CODIS users within the
   Laboratory had access to CODIS with one exception. We found that
   a Systems Administrator user account that was no longer being
   used was still active in CODIS. According to laboratory personnel,
   the Systems Administrator user account was utilized only during the
   Laboratory’s initial CODIS program set-up and the account was
   never deactivated. After we brought this to the Laboratory’s
   attention, the CODIS Administrator deactivated the Systems
   Administrator user account and provided us a report with the
   Systems Administrator user account stop date. The FBI also
   confirmed that the Systems Administrator user account was not in
   NDIS and had no capabilities to add or alter any information in
   NDIS. Based on this evidence and the Laboratory’s corrective
   actions, we do not consider this to be a finding regarding the
   Laboratory’s effort to adhere to the NDIS Security Requirements.

•	 The Laboratory’s in-house policy requires that on a daily basis its
   CODIS server be automatically backed up to another server at an
   off-site location in Olympia, Washington, which is the headquarters
   location of the Washington State Police. Also, another automatic
   weekly back up of the CODIS server is required to be made onto an
   external hard drive, which is located at the Laboratory. On a
   weekly basis, the server in Olympia, Washington, which contains
   the Laboratory’s daily back-ups, is further backed up to a Storage
   Area Network library, which is also located in Olympia, Washington.
   We confirmed that back-up software was installed on the CODIS
   terminal and we physically verified the existence of the Laboratory’s
   external hard drive, confirming that the Laboratory was following its
   in-house back-up policy.

•	 The NDIS Security Requirements state that only authorized
   personnel shall have physical access to the CODIS server, and that
   locating a CODIS terminal server in a common data center may be
   permitted as long as the data center is located within the criminal
   justice agency and is physically secure. We learned that the CODIS
   server has been stored in the forensic laboratory behind locked
   doors. Access to the CODIS terminal and the server is currently
   limited to CODIS users. We observed the location and accessibility
   of the CODIS server and found it to be in compliance with NDIS
   Security Requirements.

                              -9­
Conclusion

       We found that the Laboratory was in compliance with NDIS
participation requirements regarding updated NDIS eligibility training for
Laboratory personnel, timeliness of NDIS matches, securing and limiting
access to the CODIS server to authorized personnel only, and creating
backups of its CODIS server in accordance with NDIS requirements. We
made no recommendations concerning our review of the Laboratory’s efforts
to adhere to NDIS participation requirements.




                                  - 10 ­
       II.    Compliance with Quality Assurance Standards

              We found that the Laboratory complied with the
              Quality Assurance Standards (QAS) issued by the
              FBI. Specifically, we found that the Laboratory:
              (1) followed protocols with regard to amplified
              samples being maintained in separate rooms from
              the evidence examination, DNA extraction, and
              polymerase chain reaction setup areas,
              (2) underwent Quality Assurance Standard reviews
              within designated timeframes, and (3) had
              procedures in place to help ensure that access to the
              Laboratory was controlled and limited to authorized
              personnel.

     During our audit, we considered the Forensic QAS issued by the FBI. 7
These standards describe the quality assurance requirements that the
Laboratory must follow to ensure the quality and integrity of the data it
produces. We also assessed the two most recent QAS reviews that the
Laboratory underwent. 8 The QAS we reviewed are listed in Appendix II.

Results of the OIG Audit

      We found that the Laboratory complied with the QAS issued by the
FBI. Specifically, the Laboratory: (1) followed protocols with regard to
amplified samples being maintained in separate rooms from the evidence
examination, DNA extraction, and PCR setup areas; (2) underwent QAS
reviews within designated timeframes; and (3) had procedures in place to
help ensure that access to the Laboratory was controlled and limited to
authorized personnel. These results are described in more detail below.



       7
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective September 1, 2011.
       8
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed having at least
one team member who is or has been an analyst previously qualified in the laboratory’s
current DNA technologies and platform and one team member who is currently or was
previously a qualified analyst from a databasing laboratory. These audits are not required
by the QAS to be performed in accordance with the Government Auditing Standards (GAS)
and are not performed by the Department of Justice Office of the Inspector General.
Therefore, we will refer to the QAS audits as reviews (either an internal laboratory review or
an external laboratory review, as applicable) to avoid confusion with our audits that are
conducted in accordance with GAS.

                                           - 11 ­
•	 The QAS requires amplified DNA to be maintained at separate times
   or in separate spaces from the evidence examination, DNA
   extraction, and polymerase chain reaction (PCR) setup processes.
   We observed that the Laboratory had separate areas for DNA
   examination and extraction, PCR setup, and DNA amplification.
   Known and unknown samples were separated by time and space
   during the PCR setup and all evidence flows one-way to avoid
   amplified DNA from being introduced into Pre-PCR areas of the
   laboratory. We observed that the doors in the post-PCR areas of
   the laboratory were closed and locked; the Laboratory’s policy was
   to keep these doors closed and locked at all times. Based on our
   observations and review of the Laboratory’s procedures, the
   Laboratory was in compliance with the QAS requirement that we
   tested.

•	 The Laboratory’s policy for controlling and safeguarding evidence
   samples requires that all evidence will be kept in the evidence vault
   or in an alternative evidence storage location within the Laboratory
   and the Laboratory must be locked and secured during off-duty
   hours. We observed that the Laboratory’s vault was secure and
   access to it was limited to authorized laboratory personnel only,
   which included the Laboratory Manager, Supervisors, Property and
   Evidence Custodians, and a DNA Analyst. The chain of custody
   over evidence was documented in the Laboratory’s evidence
   retrieval system known as the Laboratory Information Management
   System (LIMS). LIMS maintained information on the location of
   each piece of evidence at all times. For example, a DNA analyst
   makes a request to the Property and Evidence Custodian to sign out
   evidence from the vault. The sign-out process includes the DNA
   analyst scanning a unique bar code and entering a secure personal
   identification number in order to document the chain of custody in
   LIMS. DNA Analysts are assigned locked refrigerators or storage
   spaces to secure the evidence while it is not in the DNA Analyst’s
   immediate custody. Upon completion of DNA analysis, the DNA
   Analyst returns the evidence to the vault, where it is scanned and
   signed backed in by the Property and Evidence Custodian. Due to
   limited storage space at the Laboratory, all evidence is preserved
   by the Laboratory while DNA analysis is being conducted and
   returned to the submitting agency once the analysis is complete.
   Based on our observations, the Laboratory maintained integrity of
   its physical evidence in accordance with the QAS requirements that
   we tested.




                              - 12 ­
      •	 According to Laboratory officials, since 2007, the Laboratory has
         been conducting technical review of the analysis of forensic DNA
         samples analyzed by Orchid Cellmark, Inc. 9 The Orchid Cellmark
         laboratory was last accredited for 5 years by the American Society
         of Crime Laboratory Directors/Laboratory Accreditation Board
         (ASCLD/LAB) in September 2012. Thus, the Orchid Cellmark
         laboratory will be up for renewal in September 2017. We reviewed
         a copy of Orchid Cellmark’s contract with the Laboratory and
         determined that the requirements were appropriately documented
         and approved in accordance with the QAS. The QAS required
         Orchid Cellmark to undergo an annual review, including an external
         review every 2 years. During our fieldwork in February 2012, we
         found that Orchid Cellmark had an external QAS review performed
         in May 2010 and an internal QAS review performed in September
         2011, in accordance with the FBI’s requirement. Both the internal
         and external reviews were conducted using the FBI’s QAS Review
         Document and the external audit QAS reviewers signed the conflict
         of interest form as required by the QAS. The external review had
         no findings of non-compliance, while the internal review had one
         finding of non-compliance in which the vendor laboratory addressed
         and documented the correction. According to the QAS, an analyst
         or technical reviewer employed by an NDIS participating Laboratory
         shall perform a technical review of the vendor laboratory’s DNA
         data before it is uploaded to CODIS or the search results are
         reported. We reviewed five outsourced cases to ensure the
         Laboratory was conducting technical reviews of all outsourced cases
         before uploading the DNA data to CODIS. As a result, we found in
         all five cases that Laboratory personnel conducted a technical
         review before uploading DNA data into CODIS.

      •	 The QAS requires laboratories to undergo an annual review,
         including an external review every 2 years. During our fieldwork in
         February 2012, we found that the Laboratory had an external QAS
         review performed in October 2010 and an internal QAS review
         performed in October 2011, in accordance with the FBI’s
         requirement.

      •	 We reviewed the Laboratory’s prior 2 years of QAS review reports.
         Both the internal and external reviews were conducted using the
         FBI’s QAS Review Document. The FBI confirmed that at least one

      9
          Law enforcement agencies in the State of Washington may submit evidence
directly to Orchid Cellmark, Inc., through grant programs administered by the Washington
Association of Sheriffs and Police Chiefs.

                                         - 13 ­
        of the QAS reviewers for both reviews had successfully completed
        the FBI QAS Review training course.

        o	 The external QAS review conducted in October 2010, noted no
           findings for the Laboratory.

        o	 The internal QAS review conducted in October 2011, noted
           8 findings for the Laboratory. We confirmed that the Laboratory
           has implemented corrective action for each of the 8 findings.

     •	 We also verified that each of the QAS reviewers who conducted the
        most recent external QAS review completed the Auditor Self-
        Certification worksheet and indicated that there were no
        impairments to their independence.

     •	 We reviewed the Laboratory’s policies on physical security of the
        facility, as well as the keys and key card assignments to Laboratory
        personnel for access to the secured areas of the Laboratory. We
        observed during our tour, that one main door to the facility was
        unlocked during business hours and all other doors into the facility
        were locked and closed off to the public. The main door was
        unlocked to allow entry for visitors and deliveries and it led to a
        waiting area that was secure from any further access to the rest of
        the Laboratory. In order to gain access to other parts of the
        Laboratory, all visitors are required to press a call button, speak to
        a receptionist, and if allowed entry, sign a log-in sheet, obtain a
        badge, and they must be escorted by a staff member at all times
        while in the Laboratory. The doors leading into the interior parts of
        the Laboratory were secured with key pads and were limited only to
        authorized personnel. Authorized personnel have key pad access to
        enter and exit the Laboratory through a locked door adjacent to the
        main entrance. We found that overall external and internal security
        at the Laboratory was adequate and in compliance with the QAS
        requirements we tested.

Conclusion

      We found that the Laboratory complied with the FBI’s Forensic QAS
that we tested. Specifically, we found that the Laboratory: (1) followed
protocols with regard to amplified samples being maintained in separate
rooms from the evidence examination, DNA extraction, and PCR setup
areas; (2) underwent QAS reviews within designated timeframes; and
(3) had procedures in place to help ensure that access to the Laboratory was
controlled and limited to authorized personnel. We made no

                                   - 14 ­
recommendations concerning our review of the Laboratory’s adherence to
the QAS.




                                 - 15 ­
      III. Suitability of Forensic DNA Profiles in CODIS Databases

            We reviewed 100 of the Laboratory’s 461 forensic
            profiles that had been uploaded to NDIS as of
            January 19, 2012. Of the 100 forensic profiles
            sampled, we found that 99 profiles were complete,
            accurate, and allowable. We identified one
            unallowable profile that was not taken from the
            crime scene. The Laboratory agreed to delete the
            unallowable profile and one more profile that was not
            in our original sample, but was also uploaded in
            association with the unallowable profile in our
            sample. In total, the Laboratory removed two
            unallowable profiles from NDIS.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. To test the completeness and accuracy of each profile, we
established standards that require a profile include all the loci for which the
analyst obtained results, and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime.
For instance, a profile from an item seized from the suspect’s person, such
as a shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

      We selected a sample of 100 profiles out of the 461 forensic profiles
that the Laboratory had uploaded into NDIS as of January 19, 2012. Of the
100 forensic profiles sampled, we found that 1 profile was unallowable for

                                    - 16 ­
upload to NDIS. The remaining profiles sampled were complete, accurate,
and allowable for inclusion in NDIS. In addition to our sampled profiles, we
found one more unallowable profile uploaded to NDIS that was associated
with the unallowable profile. In total, the Laboratory removed two profiles
from NDIS. The specific exceptions are explained in more detail below.

Sample Number WA-7

      Sample WA-7 was taken from a stamp on a letter that was mailed to
the home of a murder victim’s father in Canada after the homicide had
occurred in the United States. We deemed this profile to be unallowable
because it was not taken from the crime scene. The CODIS Administrator
deleted this profile because of the additional information the Laboratory
obtained during our review that determined the profile to be unallowable. In
addition, the CODIS Administrator discovered a second profile uploaded to
CODIS that was also taken from the letter. The Laboratory deleted the
additional profile. In total, two profiles were removed from NDIS.

Conclusion

       Based on our testing of 100 sample forensic profiles that the
Laboratory uploaded to NDIS, we found 99 profiles were complete, accurate,
and allowable for inclusion in NDIS, but we questioned the Laboratory’s
upload of 1 forensic profile that did not meet the standards for NDIS. The
Laboratory agreed and removed the unallowable profile. We also confirmed
that the Laboratory removed an additional profile that was not part of our
sample. However, it was related to the one exception that we identified in
our sample and it too was deemed inappropriate for CODIS. Because the
Laboratory took corrective action on the two profiles, we make no
recommendations concerning the suitability of the Laboratory’s forensic DNA
profiles that are in CODIS.




                                   - 17 ­
                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from December 2009 through
January 2012. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

     •   Examined internal and external Laboratory QAS review reports and
         supporting documentation for corrective action taken, if any, to
         determine whether: (a) the Laboratory complied with the QAS,
         (b) repeat findings were identified, and (c) recommendations were
         adequately resolved.

         In accordance with the QAS, the internal and external laboratory
         review procedures are to address, at a minimum, a laboratory’s
         quality assurance program, organization and management, personnel
         qualifications, facilities, evidence control, validation of methods and
         procedures, analytical procedures, calibration and maintenance of
         instruments and equipment, proficiency testing of analysts, corrective
         action for discrepancies and errors, review of case files, reports,
         safety, and previous audits. The QAS require that internal and
         external reviews be performed by personnel who have successfully
         completed the FBI’s training course for conducting such reviews.
         We obtained evidence from the FBI and the Laboratory concerning:
         (1) the qualifications of the internal and external reviewers, and
         (2) the independence of the external reviewers.




                                    - 18 ­
•	 Interviewed Laboratory officials to identify management controls,
   Laboratory operational policies and procedures, Laboratory
   certifications or accreditations, and analytical information related to
   DNA profiles.

•	 Toured the Laboratory to observe facility security measures as well as
   the procedures and controls related to the receipt, processing,
   analyzing, and storage of forensic evidence and convicted offender
   DNA samples.

•	 Reviewed the Laboratory’s written policies and procedures related to
   conducting internal reviews, resolving review findings, expunging
   DNA profiles from NDIS, and resolving matches among DNA profiles
   in NDIS.

•	 Reviewed supporting documentation for 5 of 22 NDIS matches to
   determine whether they were resolved in a timely manner. The
   Laboratory provided the universe of NDIS matches as of
   February 12, 2012. The sample was judgmentally selected to include
   both case-to-case and case-to-offender matches. This non-statistical
   sample does not allow projection of the test results to all matches.

•	 Reviewed supporting documentation to determine whether the
   Laboratory provided adequate vendor oversight.

   Reviewed the case files for selected forensic DNA profiles to
   determine if the profiles were complete, accurate, and allowable for
   inclusion in NDIS.

   Working in conjunction with the contractor used by the FBI, we
   obtained an electronic file identifying the 461 (STR) forensic profiles
   the Laboratory had uploaded to NDIS as of January 19, 2012. We
   limited our review to a sample of 100 profiles. This sample size was
   determined judgmentally because preliminary audit work determined
   that risk was not unacceptably high.

•	 Using the judgmentally-determined sample size, we randomly
   selected a representative sample of labels associated with specific
   profiles in our universe to reduce the effect of any patterns in the list
   of profiles provided to us. However, since the sample size was
   judgmentally determined, the results obtained from testing this
   limited sample of profiles may not be projected to the universe of
   profiles from which the sample was selected.



                                - 19 ­
      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                   - 20 ­
                                                                       APPENDIX II

                                AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the QAS. However, we did not test for compliance with
elements that were not applicable to the Laboratory. In addition, we
established standards to test the completeness and accuracy of DNA profiles
as well as the timely notification of DNA profile matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

       •	   NDIS Laboratories Procedures
       •	   Quality Assurance Standards Audit Procedure
       •	   NDIS Confirmation and Hit Dispositioning Procedure
       •	   NDIS DNA Records Procedure
       •	   NDIS DNA Acceptance Standards
       •	   NDIS Searches Procedure
       •	   NDIS Security Requirements Procedure
       •	   The FBI Flowchart: A Guide to Determining What is Allowable in
            the Forensic Index at NDIS 10

Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009
(Offender QAS). The Forensic QAS and the Offender QAS describe the
quality assurance requirements that the Laboratory should follow to ensure
the quality and integrity of the data it produces.



       10
          The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
CODIS Administrator’s Handbook and has been provided to laboratories in forums such as
the CODIS conference.

                                          - 21 ­
       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

      •	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
         have a facility that is designed to ensure the integrity of the
         analyses and the evidence.

      •	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
         follow a documented evidence control system to ensure the integrity
         of physical evidence. Where possible, the laboratory shall retain or
         return a portion of the evidence sample or extract.

      •	 Sample Control (Offender QAS 7.1): The laboratory shall have and
         follow a documented sample inventory control system to ensure the
         integrity of database and known samples.

      •	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
         laboratory shall monitor the analytical procedures using [appropriate]
         controls and standards.

      •	 Review (Forensic QAS 12.1): The laboratory shall conduct
         administrative and technical reviews of all case files and reports to
         ensure conclusions and supporting data are reasonable and within
         the constraints of scientific knowledge.

         (Offender QAS Standard 12.1): The laboratory shall have and follow
         written procedures for reviewing DNA records and DNA database
         information, including the resolution of database matches.

      •	 [Reviews] (Forensic QAS and Offender QAS 15.1): The laboratory
         shall be audited annually in accordance with [the QAS]. The annual
         audits shall occur every calendar year and shall be at least 6 months
         and no more than 18 months apart.

      •	 [Reviews] (Forensic QAS and Offender QAS 15.2): At least once
         every 2 years, an external audit shall be conducted by an audit team
         comprised of qualified auditors from a second agency(ies) and having
         at least one team member who is or has been previously qualified in
         the laboratory’s current DNA technologies and platform.



                                     - 22 ­
     •	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A
        vendor laboratory performing forensic and database DNA analysis
        shall comply with these Standards and the accreditation requirements
        of federal law.

        Forensic QAS 17.4: An NDIS participating laboratory shall have and
        follow a procedure to verify the integrity of the DNA data received
        through the performance of the technical review of DNA data from a
        vendor laboratory.

        Offender QAS Standard 17.4: An NDIS participating laboratory shall
        have, follow and document appropriate quality assurance procedures
        to verify the integrity of the data received from the vendor laboratory
        including, but not limited to, the following: Random reanalysis of
        database, known or casework reference samples; Inclusion of QC
        samples; Performance of an on-site visit by an NDIS participating
        laboratory or multi-laboratory system outsourcing DNA sample(s) to
        a vendor laboratory or accepting ownership of DNA data from a
        vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

     •	 Completeness of DNA Profiles: A profile must include each value
        returned at each locus for which the analyst obtained results. Our
        rationale for this standard is that the probability of a false match
        among DNA profiles is reduced as the number of loci included in a
        profile increases. A false match would require the unnecessary use
        of laboratory resources to refute the match.

     •	 Accuracy of DNA Profiles: The values at each locus of a profile
        must match those identified during analysis. Our rationale for this
        standard is that inaccurate profiles may: (1) preclude DNA profiles
        from being matched and, therefore, the potential to link convicted
        offenders to a crime or to link previously unrelated crimes to each
        other may be lost; or (2) result in a false match that would require
        the unnecessary use of laboratory resources to refute the match.

     •	 Timely Notification of Law Enforcement When DNA Profile Matches
        Occur in NDIS: Laboratories should notify law enforcement
        personnel of NDIS matches within 2 weeks of the match

                                    - 23 ­
confirmation date, unless there are extenuating circumstances. Our
rationale for this standard is that untimely notification of law
enforcement personnel may result in the suspected perpetrator
committing additional, and possibly more egregious, crimes if the
individual is not deceased or already incarcerated for the
commission of other crimes.




                         - 24 ­
                                                                                                                APPENDIX III

                                         AUDITEE RESPONSE11
                                                                                                                           FtB I ~ 7013


            EIIRlS=Flt.(   o. GRE6EHRE                                                                         JOHN R. BATISTE
                    Governor                                                                                            Chid


                                                         STATE OF WASHINGTON

                                               WASHINGTON STATE PATROL
                      2700 116th Street NE Suite P • Tulalip, Washington 98271-9425 • (360) 654-1201 • www.wsp.wa.gov

             February 13.2013


             David J. Gaschke
             U.S. Department of Justice
             Office of the Inspector General
             San Francisco Regional Audit Office
             1200 Bayhill Drive, Su ite 201
             San Bruno, CA 94066

             Dear Mr. Gaschke:

             Thank you for the opportunity to review and provide comments o n the draft audit report. "A udit of
             Compliance w ith Standards Governing Combined DNA Index System Activ ities at the Washington State
             Patrol Marysvi lle Crime Laboratory." Our comments are as fo llows:

             Page th irteen states, " According to Laboratory officials, since 2007, the Laboratory has been outsourcing
             the analys is of its forensic DNA samples to Orch id Cell mark, Inc."

             This statement is not an accurate assessment of our relationship with Orchid Cellmark, Inc. The
             Washington State Patrol Crime Laboratory system does not outsource DNA testing. Law enforcement
             agencies in the State of Washington may submit some of their evidence directly to Orchid Ce llmark. Inc.
             through grant programs administered by the Washi ngton Association of Sheriffs and Police Chiefs
             (WASPC). The Washington State Patrol conducts technica l review of DNA ana lyses from Orchid
             Cellmark. Inc . prior to entering any profiles from these outsourced cases into the database.

             Additional infonnation regarding the DNA profile designated WA-7 (and o ne more similar profile
             associated with this sample) was obtained by the laboratory during the audit, which led us to conclude
             that these two DNA profiles in COOlS were no longer attributable to a possib le perpetrator. Further
             investigation conducted by law enforcement had detcnnined that the evidence (Icner) was separate from
             the homicide's crime scene and therefore not allowable in CODIS. These two profiles were subsequently
             removed from the database.

             Please feel free 10 conta,ct me or Ms. Kristina Hoffman at 360-654-120 I if you need any further
             information or clarification regarding the comments offered in o ur response.

                                                                Sincerely,

                                                                   /
                                                                       .V~~
                                                                Gene P. Lawrence, Manager
                                                                Marysville Crime Laboratory

             GPLgpl




       11
          The Laboratory provided information in its response that we incorporated into the
report. The additional information provided by the Laboratory did not change our audit
results.


                                                                - 25 ­
                                                                                              APPENDIX IV


      DEPARTMENT OF JUSTICE RESPONSE




                                                            U.S. Departme nt of JWitice

                                                            rederal BU1eau of Investigation



                                                            W..IliD~ "' . D.C. 2OS35.ooo t

                                                            February 20, 2013


David J. Gaschke
Regional Audit Manager
San Francisco Regional Audit Office
Office of Ihe Inspector General
1200 Bayhill Drive, Suile 201
San Bruno, CA 94066



Dcar Mr. Gaschke:

                Your memorandum to Director Mueller forwarding the draft audit report for the
Washinglon Slate Palrol, Marysville Crime Laboratory, Tulalip, Washington (Laboratory), has
been referred to me for response.
               Your drart report contained no recommendations relating 10 the Laboratory'S
compliance with Ihe FBI's Memorandum of Understanding and Quality ASSllrance Standards/or
DNA Testing Laboratories. The CODIS Uni t reviewed the draft report and since it appears thai
thc Laboratory is in compliance with to.'DIS participation requ irements, Ihe COOlS Unit has no
significant comments to provide about Ihe draft report.
               Thank you for sharing the draft audit report with us. If you have any questions,
please fcd frec to conlact Jennifer C. Wendel, Chief of Ihe COOlS Unil, at (703) 632· 8315.

                                                    Sincerely,


                                                    ~e~i~Ddr
                                                    Section Chief
                                                    Biometrics Analysis Section
                                                    FB I Laboratory




                                             - 26 ­
